WAIVER
Supreme Court of the United States
No. 20-5364
John S. Kaminski

(Petitioner)

v.

Scott Semple, Commissioner,
Connecticut Department of Correction, et
al.
(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:

~
D

Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

"-¢ I am a member of the Bar of the Supreme Court of the United States.
D

I am not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.

DMr.

Zip {)

&f(bo I

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF

PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL

Co

CERTIF~ CATE

OF SERVICE\S REQUIRED .

.:Sat-itJh.~1nSfi_ (('1) ~

Obtain status of case on the docket. By phone at 202-4 79-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

